Jas
I

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-515

PHILADELPHIA INDEMNITY INSURANCE COMPANY,
Petitioner,
v.

GATEWAY HOSPITALITY GROUP, INC.; WESTERN
HOSPITALITY GROUP, LP D/B/A HILTON GARDEN
INN MISSOULA; KALISPELL HOTEL, LLC D/B/A
HILTON GARDEN INN KALISPELL; BOZEMAN
LODGING INVESTORS, LLC D/B/A HILTON GARDEN
INN BOZEMAN; JWT HOSPITALITY GROUP, LLC
D/B/A HILTON GARDEN INN BILLINGS,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS’ BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8366 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Rrmrmen| Keree. Q.Llaoo? Qudaneh Ghd

My Comm. Exp. September 8, 2023
Notary Public Affiant 40325

 
